         OFFICE OF INSPECTOR GENERAL

                                   Catalyst for Improving the Environment



Evaluation Report



         Survey of Air Quality Information
         Related to the World Trade
         Center Collapse
         Report No. 2003-P-00014

         September 26, 2003
Report Contributors:       Sarah Fabirkiewicz
                           Jim Hatfield
                           Chris Dunlap
                           Darryl Weatherhead
                           Rick Beusse
                           Elizabeth Grossman




Abbreviations

EPA             Environmental Protection Agency
HEPA            High Efficiency Particulate Air
NYC             New York City
OIG             Office of Inspector General
OMB             Office of Management and Budget
WTC             World Trade Center




Cover Photo:    Image from French SPOT satellite, which shows the plume from the World
                Trade Center site in Lower Manhattan blowing over Brooklyn. Source: image
                obtained from NASA web site - http://l7fot.gsfc.nasa.gov/NYC.html
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460



                                                                          THE INSPECTOR GENERAL


                                       September 26, 2003


MEMORANDUM

SUBJECT:          Survey of Air Quality Information
                  Related to the World Trade Center Collapse
                  Report No. 2003-P-00014

TO:               Marianne L. Horinko
                  Acting Administrator

This memorandum transmits the results of an Office of Inspector General (OIG) survey that
gauged the public’s perception of air quality information received after the collapse of the
World Trade Center (WTC) towers. Data from this survey supplement our earlier report,
EPA’s Response to the World Trade Center Collapse: Challenges, Successes, and Areas for
Improvement (Report No. 2003-P-00012), dated August 21, 2003.

EPA communicated air quality information to the public through press releases, interviews with
print and television journalists, appearances at public forums, and posting of extensive data on
the Agency’s public web site. Concerns were raised, however, about government
communications in the aftermath of the WTC disaster and the impact these communications had
on the actions taken by the public and responders to reduce their exposure to WTC contaminants.
More than a year after the WTC disaster, a city-wide study had not been undertaken to gauge the
effectiveness of the crisis communication efforts following September 11, 2001. To that end, the
OIG conducted a survey of New York City (NYC) residents on a variety of issues related to air
quality. Based on the survey’s response rate of 11.8 percent, the data presented in this report
represent the responses from 1,110 survey respondents, and should not be generalized to the
population of NYC.

Summary of Results

Overall, the majority of respondents wanted more information regarding outdoor and indoor air
quality, wanted this information in a more timely manner, and did not believe the information
they received.

The survey results also suggest a disconnect between government statements about air quality
and respondents’ perceptions of possible health risks from breathing the air in Lower Manhattan.
The majority of respondents reported that they thought breathing outdoor and indoor air in Lower
Manhattan in the weeks following the WTC collapse could expose them to short- and long-term
health effects.

Further, data indicated that contamination from the collapse of the WTC towers spread into the
homes of respondents located beyond the perimeter of the zone designated as eligible for the
EPA-led testing and cleaning program.

Our data indicated only about 1 out of 10 respondents knew about EPA’s “Response to
September 11” web site, and even fewer visited the site. The majority of respondents, however,
were aware of key WTC-related information, such as EPA’s recommendation to have
contaminated homes professionally cleaned and the EPA-led testing and cleaning program in
eligible areas of Manhattan. Despite this awareness, relatively few respondents with home
contamination had their homes tested for asbestos or professionally cleaned.

Actions Already Being Taken

EPA has initiated several actions to improve its risk communications in the aftermath of the
WTC collapse. Also, our prior report included many recommendations for improving risk
communications that the Agency has agreed to implement. As such, we have not made
additional recommendations in this report based on the survey.

We appreciate the efforts of EPA officials and staff in working with us to develop this survey.
If you or your staff have any questions regarding this report, please contact me at (202) 566-0847
or Kwai Chan, Assistant Inspector General for Program Evaluation, at (202) 566-0827.



                                                     Nikki L. Tinsley

Attachment

cc:
Thomas J. Gibson, Chief of Staff, Office of the Administrator
Jane M. Kenny, Regional Administrator, EPA Region 2
Barry N. Breen, Principal Deputy Assistant Administrator, Office of Solid Waste and
    Emergency Response
Jeffrey R. Holmstead, Assistant Administrator for Air and Radiation
J. Paul Gilman, Ph.D., Assistant Administrator for Research and Development
Kimberly Terese Nelson, Assistant Administrator for Environmental Information
Lisa B. Harrison, Acting Associate Administrator, Office of Public Affairs
Kathleen Callahan, Assistant Regional Administrator for New York City Response and
    Recovery Operations
Mary U. Kruger, Director, EPA Office of Homeland Security

                                                ii
                                Table of Contents

Introduction             ......................................................                                                  1

   Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
   Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             2
   Survey Response Rate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            3



Survey Results                 ....................................................                                              7

   Section 1: Respondents’ Satisfaction With Information . . . . . . . . . . . . . . . . . . . . . .                   7
   Section 2: Respondents’ Perceptions of Air Quality . . . . . . . . . . . . . . . . . . . . . . . .                  9
   Section 3: Awareness of WTC-Related Information and
      Actions Taken by Respondents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
   Limitations of Survey Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17



Observations               .....................................................                                                 19




Appendices             .......................................................                                                   21

   A          Survey Cover Letter . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        21
   B          Survey of Air Quality Issues After September 11, 2001 . . . . . . . . . . . . . . . . .                            23
   C          Sample Details . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         25
   D          Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     27




                                                              iii
                                        Introduction
Purpose

This survey was undertaken in order to obtain information to satisfy objective 4 of our prior
World Trade Center (WTC) report (No. 2003-P-00012). Objective 4 sought to measure the
extent to which government communications regarding air quality and associated health risks
were:

C Rated satisfactory by the public;
C Understood and interpreted by the public; and
C Effective in getting people to take desired precautions or actions.

After the September 11, 2001, terrorist attacks on the WTC towers, government communications
were criticized for not providing timely and accurate air quality information to the public. In
preparing the prior report, the Office of Inspector General (OIG) found that, as of September
2002, a year after the disaster, no city-wide study of the effectiveness of government
communications had been undertaken.1 As such, the OIG conducted a survey of residents in all
five boroughs of New York City (NYC) to address the above objective.

Background

A critical component in helping the public to minimize its exposure to potential health hazards
resulting from a terrorist attack or other disaster involves effectively communicating risk
information. Armed with such information, the public can take positive steps to mitigate
potential exposures as well as take other precautions to avoid unnecessary health risks.

Following the collapse of the WTC towers, EPA announced its intention to keep the public and
rescue workers informed about safety and health risks related to air quality. The Agency’s first
WTC-related press release, on September 13, 2001, noted that EPA:

          . . . will work with the appropriate officials to ensure that rescue workers,
          cleanup crews and the general public are properly informed about appropriate
          steps that should be taken to ensure proper handling, transportation and
          disposal of potentially contaminated debris or materials.

EPA communicated air quality information to the public through press releases, appearances at
public forums, media interviews, and its public web site. In the days and months following the


1
  From October 25 through November 1, 2001, the NYC Department of Health conducted a door-to-door survey of
residents in Lower Manhattan’s Battery Park City, Southbridge Towers, and Independence Plaza. “A Community
Needs Assessment of Lower Manhattan Following the World Trade Center Attack,” December 2001.

                                                     1
attacks, EPA’s overriding message was that the public did not need to be concerned about
airborne contaminants. This reassurance appeared to apply to both indoor and outdoor air.
EPA’s press releases generally did not discuss potential adverse short-term health effects or the
potential risks to sensitive populations, although Agency spokespersons orally discussed these
issues.

With respect to actions people should take to minimize their exposure to health risks, EPA’s
press releases advised residents and business owners that they could clean their own spaces if
they used “appropriate” vacuum filters and followed “recommended” and “proper” procedures,
but the releases did not define these terms. However, Agency spokespersons, including EPA’s
Administrator, recommended in televised interviews2 and other public forums that residents
should obtain professional cleaning (by professional asbestos contractors) of indoor spaces when
dust reached certain levels.

Scope and Methodology

To obtain information directly from the public about the impact of government communications
regarding air quality concerns following the WTC towers’ collapse, the OIG developed and
mailed out a Survey of Air Quality Issues After September 11, 2001 (see Appendices A and B).
In accordance with the Paperwork Reduction Act, the OIG obtained approval from the Office of
Management and Budget (OMB) and solicited public comment regarding the survey through the
Federal Register. In addition, former Administrator Christine Todd Whitman reviewed the draft
survey questionnaire. Based on her input we included questions about the public’s knowledge of
EPA’s WTC response web site. The survey was pre-tested with selected citizens of NYC prior
to its delivery.

    The survey requested information from respondents in four areas:

•     Section 1: Satisfaction with outdoor and indoor air quality information received.
      Respondents were asked to rate their satisfaction on a scale of “1” (Not at All Satisfied) to
      “5” (Completely Satisfied).
•     Section 2: Understanding and interpretation of air quality information received. Questions
      asked respondents -- in terms of how it was affected by the collapse of the WTC towers --
      their perception of air quality in Lower Manhattan in the weeks just after September 11, 2001
      and at the time they took the survey in 2003.
•     Section 3: Awareness of WTC-related information and actions taken in response to the
      collapse. This section asked respondents if they had taken various actions and/or precautions
      in response to the dust/debris and if they were aware of certain WTC-related information.



2
 The earliest instance we could locate was on October 26, 2001, when the EPA Administrator recommended
professional cleaning in a televised interview on MSNBC.

                                                      2
•   Section 4: Demographic information. Voluntary demographic information was requested to
    detect, assess, and adjust for non-response bias within the sample, and to cross-tabulate
    variances within sub-populations of interest.

Appendix C provides a detailed description of how we obtained our sample. We began sending
out the surveys on March 27, 2003, and accepted responses until July 31. We completed our
analysis of the survey responses on September 4, 2003.

Our earlier report, EPA’s Response to the World Trade Center Collapse: Challenges, Successes,
and Areas for Improvement (Report No. 2003-P-00012), dated August 21, 2003, included many
recommendations for improving risk communications that the Agency has agreed to implement.
As such, this report on the survey is not making any additional recommendations.
Our review was conducted in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States.

Survey Response Rate
This report is based on surveys received from 1,110 respondents who reported living in NYC as
of September 11, 2001. We actually received 1,161 responses, for an overall response rate of
11.8 percent.3 However, the data analyzed and referred to throughout this report excludes 51 of
the 1,161 surveys received because they contained either no zip code or a zip code from outside
of NYC. Based on the response rate and a lack of information regarding certain characteristics of
non-respondents, we determined that, for purposes of this report, results from the data presented
would be limited only to the pool of survey respondents who reported living in NYC as of
September 11, 2001, and we did not draw any inferences about the overall population of the five
boroughs of NYC.
Figure 1 depicts the distribution of respondents across NYC based on where respondents reported
living as of September 11, 2001. For purposes of drawing a sample for the survey and to be able
to analyze data by zip code, OIG defined Lower Manhattan as the area south of Broome and E.
Houston Streets.




3
 Response rate was calculated by dividing the number of surveys OIG received by the number of surveys delivered. Out of
10,000 addresses, 191 were deemed insufficient and/or undeliverable by the U.S. Postal Service and did not get delivered.
Thus, the response rate = 1,161 / 9,809, or 11.8 percent.

                                                              3
       Figure 1: Distribution of Respondents by Where They Lived on September 11, 2001*




                * Respondents were asked their five-digit zip code as of September 11, 2001, and the
                number of responses by borough is based on the respondent’s address at that time. An
                additional 51 surveys contained either no zip code or a zip code from outside of NYC.


Figure 2 shows how the survey respondents compare to the population of NYC in terms of
selected demographic characteristics, including sex, age, education level, and language.

       Figure 2: Demographic Characteristics of OIG Survey Respondents Compared to
       Characteristics of NYC Population*

             100%           NYC Population        All Respondents            95.1%

              90%
                                             79.4%
              80%                                       73.6%

              70%       61.1%                                          62.9%
              60%   53.8%                                                                  53.1%
                                 46.2%
              50%
                                         38.9%
              40%
                                                               26.4%                                29.2%
              30%                                                                     23.8%
                                                          20.6%
              20%                                                                                           13.7%

              10%

               0%
                     Female       Male       Age18-59      Age 60+     H.S. Diploma   Bachelor's   English Not
                                                                         or Higher    Degree or     Primary
                                                                                        Higher


       * Source: 2000 Census


                                                                4
Figure 2 indicates that based on the 2000 Census, females are over represented among
respondents (61.1 percent versus 53.8 percent in the NYC population). In terms of age, the
respondents are somewhat older than the actual population of NYC, with under representation of
18-59 year-olds and over representation of people aged 60 years or more. Overall, respondents
have a much higher level of education than the NYC population, with 95.1 percent having at
least a high school diploma compared to 62.9 percent in the actual population; and with
53.1 percent having a bachelor’s degree or higher compared to 23.8 percent in the actual
population. People who do not speak English as their primary language are under represented
among respondents at 13.7 percent compared to 29.2 percent in the population.




                                              5
6
                                      Survey Results

The majority of survey respondents indicated they were not satisfied with information they
received regarding outdoor and indoor air quality. Despite reassuring statements by EPA that the
air was “safe” to breathe, the majority of respondents thought breathing the outdoor and indoor
air in Lower Manhattan could expose them to short- and long-term health risks. Most reports of
home contamination came from respondents from Manhattan and Brooklyn. The majority of
respondents knew that contaminated homes should be professionally cleaned, but few had their
residence tested for asbestos and few who reported home contamination in Manhattan and
Brooklyn had their home professionally cleaned. Furthermore, few respondents knew about or
visited EPA’s “Response to September 11” web site. Details follow.

Section 1: Respondents’ Satisfaction With Information

Section 1 of the survey asked respondents to
rate their satisfaction with various               Majority of respondents not satisfied with
characteristics of the information they            information on air quality
received about outdoor and indoor air quality
by circling a number on a scale of 1 to 5, with
“1” equaling Not at All Satisfied and “5” equaling Completely Satisfied. In our analysis, ratings
of “1” and “2” were considered dissatisfied, while ratings of “4” and “5” were considered
satisfied. The scale’s midpoint is 3.0. Table 1 displays satisfaction ratings from all respondents.

       Table 1: Respondents’ Satisfaction With Information Received About Outdoor
       and Indoor Air Quality in the Weeks Just After Collapse of WTC Towers

       Scale:                         1 to 2      3         4 to 5       Mean        Total
       1 = Not At All Satisfied
       5 = Completely Satisfied        (%)       (%)         (%)         Rating      (no.)

                  Amount               59.4     24.0         16.7          2.3       1,051
       Outdoor




                  Understandability    47.7     25.9         26.3          2.6       1,018
                  Timeliness           57.1     23.3         19.6          2.4       1,009
                  Believability        61.2     19.8         19.0          2.3       1,011
                  Overall              57.3     24.5         18.2          2.3       1,019
                  Amount               66.1     20.1         13.8          2.1       1,029
                  Understandability    52.4     25.1         22.6          2.5        978
         Indoor




                  Timeliness           62.3     21.4         16.3          2.2        974
                  Believability        63.0     19.4         17.6          2.2        974
                  Overall              63.5     21.3         15.2          2.2        986



                                                 7
Table 1 indicates that more than half of all respondents were dissatisfied with the amount,
timeliness and believability of the information they received in the weeks just after September
11, 2001. Approximately 6 out of every 10 respondents gave a dissatisfactory overall rating for
the information they received. Respondents’ ratings of the understandability of the information
they received for outdoor air quality was slightly higher, but the average rating of 2.6 was still
below the scale midpoint of 3.0.

Respondents were also asked to rate their satisfaction with health-related information they
received in the weeks following the collapse. Satisfaction ratings were calculated for all
respondents as well as for those respondents who reported working within the perimeter of
Ground Zero between September 11, 2001, and December 31, 2001, and for those respondents
who reported living in Lower Manhattan as of September 11, 2001. Table 2 depicts how all
respondents, Ground Zero workers, and respondents from Lower Manhattan rated the health-
related information they received.

        Table 2: Satisfaction With Information Received About Health Risks in Weeks After the
        Collapse of WTC Towers for All Respondents, Ground Zero Workers, and Residents of
        Lower Manhattan

   Scale:                                            1 or 2    3      4 or 5     Mean       Total
   1 = Not At All Satisfied                           (%)     (%)      (%)       Rating     (no.)
   5 = Completely Satisfied

   Explanation of possible     All Respondents       64.3     17.5     18.3        2.2      1,013
   health threats related to
   air quality                 Ground Zero Workers   71.3     14.4     14.4        2.0      188

                               Lower Manhattan       68.0     15.5     16.5        2.1      194

   Explanation of how to       All Respondents       65.3     17.0     17.7        2.2      1,018
   minimize exposure to
   potential health risks      Ground Zero Workers   71.0     17.2     11.8        2.0      186
   related to air quality
                               Lower Manhattan       69.1     13.1     17.8        2.1      191

   Explanation of health       All Respondents       65.0     18.1     17.0        2.2      1,014
   problems one may
   experience due to air       Ground Zero Workers   70.6     16.0     13.4        2.0      187
   quality
                               Lower Manhattan       69.1     16.0     15.0        2.0      194

   Explanation of what to      All Respondents       64.6     18.2     17.2        2.2      1,010
   do if one experienced a
   health problem related      Ground Zero Workers   68.7     17.3     14.1        2.0      185
   to air quality
                               Lower Manhattan       69.3     14.6     16.2        2.1      192

   Overall rating of           All Respondents       64.0     19.9     16.2        2.2      1,027
   information received
   about health risks          Ground Zero Workers   72.3     16.2     11.5        1.9      191
   related to air quality
                               Lower Manhattan       71.4     14.6     14.1        2.1      192




                                                     8
More than 6 out of every 10 respondents reported dissatisfaction with (a) explanations of
possible health threats related to air quality; (b) how to minimize their exposure to health risks
related to air quality; (c) health problems they might experience due to air quality; and (d) what
to do if they experienced a health problem related to air quality. The mean rating among all
respondents for overall satisfaction with health-related information received in the weeks
following the collapse was 2.2.

Among Ground Zero workers and those living in Lower Manhattan during September 2001 who
responded, more than 7 out of 10 were dissatisfied with the overall quality of health-related
information they received. For both of these groups, over two-thirds reported dissatisfaction with
explanations across all categories of health-related information, resulting in a mean rating for
overall satisfaction of 1.9 among Ground Zero workers and 2.1 for residents of Lower
Manhattan.

Section 2: Respondents’ Perceptions of Air Quality

Section 2 of the survey asked residents their
                                                                             Majority of respondents thought
thoughts about the health risks associated with air
                                                                             breathing outdoor and indoor air in
quality in Lower Manhattan in the weeks                                      Lower Manhattan in weeks after collapse
immediately following the collapse of the WTC, as                            of WTC towers could expose them to
well as their thoughts at the time they completed                            short- and long-term risks
the survey approximately 18 months later.

Figures 3a and 3b illustrate respondents’ perceptions of outdoor and indoor air quality,
respectively, in terms of how it was affected by the collapse of the WTC towers in the weeks just
after the collapse (shown in the figure as “9/11/01”) and at the time they completed the survey in
May-July 2003 (shown as “Present”).

     Figure 3a: Respondents’ Perceptions of Exposure to Health Risks Associated with Outdoor
     Air Quality in Lower Manhattan in Weeks After Collapse and at Time of 2003 Survey

                                                       Not Sure             No      Yes
              health risks
              Short Term




                                                                                                          88.8%
                             9/11/01        4.5%
                                              6.6%
                                                              26.9%
                             Present                                        41.6%
                                                                    31.5%
              health risks




                                                                                            69.2%
              Long Term




                             9/11/01          9.0%
                                                        21.8%

                                                      18.1%
                             Present                                   38.1%
                                                                           43.8%
                                                                                                  74.7%
        protective

        breathing




                             9/11/01
         gear for




                                                11.2%
          Need




                                                  14.1%
                                              7.9%
                             Present                                                      65.4%
                                                              26.7%

                                       0%            20%             40%            60%           80%        100%

                                                                9
       Figure 3b: Respondents’ Perceptions of Exposure to Health Risks Associated with Indoor
       Air Quality in Lower Manhattan in Weeks After Collapse and at Time of 2003 Survey

                                                          Not Sure    No    Yes

                                                                                           76.2%

             Short Term
             health risks
                            09/11/01     9.8%
                                            14.0%
                                                  22.0%
                            Present                                43.9%
                                                           34.1%
                                                                           57.6%
             health risks
             Long Term




                            09/11/01           15.9%
                                                       26.5%
                                               16.4%
                            Present                            40.4%
                                                                 43.2%
                                                                       51.8%
       breathing
       protective




                            09/11/01                 26.2%
        gear for
         Need




                                                  22.0%
                                        6.5%
                            Present                                                66.8%
                                                       26.7%

                                   0%          20%          40%            60%         80%         100%



Figures 3a and 3b show that in the weeks just after the collapse, more respondents were
concerned about short-term health effects than they were about long-term for both outdoor and
indoor air. Almost 9 out of every 10 respondents said they were concerned about the short-term
health effects associated with outdoor air whereas approximately 7 of every 10 respondents were
concerned about long-term health risks. For indoor air, the results were similar; more than 3 out
of every 4 respondents were concerned about the short-term health effects while more than half
of the respondents were concerned about long-term health effects.

Based on the survey results in Figures 3a and 3b, it appears that respondents’ concerns about the
health risks associated with air quality subsided over time. Results further indicate that concerns
about health risks did not simply shift from “yes” to “no.” Instead, there was an increase in the
number of respondents who became unsure about outdoor and indoor health risks from
September 2001 to 2003. During that same time, respondents’ opinions about whether or not
they should wear protective gear when breathing outdoor and indoor air in Lower Manhattan
mainly changed from “yes” to “no,” and uncertainty over this issue remained relatively stable.

Figure 4 presents the perceptions of health risks from exposure to outdoor and indoor air in
Lower Manhattan in the weeks following the collapse among respondents who lived in Lower
Manhattan on September 11 and among respondents who lived in other parts of NYC at that time
(called “Rest of NYC” in the figure). In the figure, the results labeled “9/11/01” represent
respondents’ recollections of their perceptions of air quality in the weeks following September
11, 2001, while the results labeled “Present” are respondents’ perceptions of air quality at the
time they completed the survey in May-July 2003.


                                                          10
       Figure 4: Proportion of Respondents Perceiving Health Risks Associated with Outdoor and
       Indoor Air Quality in Lower Manhattan in Weeks Just After Collapse of WTC Towers and at
       Time of Survey in 2003 -- Lower Manhattan Residents and the Rest of NYC

                                                                                          Rest of NYC     Lower Manhattan

                  Long Term Short Term Long Term Short Term
                  health risks health risks health risks health risks
                                                                        9/11/01                                                       88.4%
                                                                                                                                       88.9%

                                                                        Present                 29.0%
        Outdoor




                                                                                              26.4%

                                                                        9/11/01                                         68.0%
                                                                                                                         69.5%
                                                                                     17.4%
                                                                        Present       18.2%

                                                                        9/11/01                                               78.5%
                                                                                                                            75.6%

                                                                        Present           24.6%
        Indoor




                                                                                        21.3%
                                                                                                             53.3%
                                                                        9/11/01
                                                                                                                58.6%
                                                                                   13.6%
                                                                        Present
                                                                                      17.0%

                                                                              0%    20%             40%        60%           80%          100%



Section 3: Awareness of WTC-Related Information and Actions Taken
by Respondents

Section 3 of the survey asked respondents if
their homes had been contaminated with dust      Most reports of home contamination came
and/or debris due to the collapse of the WTC     from respondents in Lower Manhattan, the
towers. This section also asked respondents      rest of Manhattan, and Brooklyn; EPA web
whether they knew about certain WTC-related      site not widely used; and homes often
                                                 cleaned without professional assistance
information and whether they had taken
certain actions in response to the dust and
debris created by the collapse of the WTC
towers. Respondents were asked about some specific EPA communications, such as whether
they: (a) knew about EPA’s “Response to September 11” web site, (b) visited the web site,
(c) knew that homes contaminated with dust and/or debris should be professionally cleaned, (d)
knew about the EPA-led program to test and clean eligible residences in Lower Manhattan, and
(e) had their residence professionally cleaned.

Data indicate that contamination from the collapse of the WTC towers spread into the homes of
respondents located beyond the zone designated as eligible for the EPA-led testing and cleaning
program. The Indoor Residential Cleaning Program was available to residences located south
and west of Canal, Allen, and Pike streets, river to river. Specifically:

•   Of the 180 residents of Lower Manhattan who responded, 46.7 percent (84 respondents)
    reported that their residence had been contaminated with dust and/or debris due to the
    collapse.

                                                                                                   11
•   Of the 204 residents of Brooklyn who responded, 23.5 percent (48 respondents) reported that
    their residence had been contaminated with dust and/or debris due to the collapse.

•   Of the 213 respondents who lived in the rest of Manhattan, 11.3 percent (24 respondents)
    reported that their residence had been contaminated with dust and/or debris due to the
    collapse.4

Figures 5a and 5b show that, among respondents, the most incidents of contamination were
reported by those in Lower Manhattan, followed by Brooklyn and the rest of Manhattan. In the
figure below, the zip code appears on the first line of each box inset. On the second line, the
number of respondents answering “Yes” to contamination is followed by the number of total
respondents from the zip code.


         Figure 5a: Reports of Contamination from Zip Codes in Manhattan*




         Source: Created using ESRI by the University Neighborhood Housing Program, www.unhp.org

         *Contamination was also reported in two Manhattan zip codes north of the area shown on this map
         (2 out of 22 respondents from zip code 10025, and 1 out of 9 respondents from zip code 10027).
         With the exception of zip code 10005, the map only shows results for those zip codes in Lower
         Manhattan where at least one respondent reported contamination. Ground Zero is located within
         zip code 10280 in the map above.



4
  The number of “yes” responses from the three remaining areas was as follows: Bronx - 1 out of 58 (1.7 percent); Queens -
5 out of 131 (3.82 percent); and Staten Island - 2 out of 44 (4.55 percent)

                                                              12
Figure 5b: Reports of Contamination From Zip Codes in Brooklyn*




Source: Created using ESRI by the University Neighborhood Housing Program, www.unph.org

* For each zip code, the respondent’s zip code is the five-digit number; the number of respondents
answering “Yes” to contamination is followed by the number of total respondents from the zip code.
The map only shows results for those zip codes in Brooklyn where at least one respondent reported
contamination.




                                               13
Few Respondents Knew About or Visited EPA’s “Response to September 11”
Web Site
According to EPA officials, one of the primary means of communicating WTC air quality-related
information to the public after September 11 was through EPA’s “Response to September 11”
web site. Figure 6 illustrates respondents’ awareness and use of the web site among all
respondents, respondents from Lower Manhattan, Brooklyn, and the rest of Manhattan.

    Figure 6: Proportion of Respondents Aware of EPA’s Web Site - - All Respondents and
    Respondents From Lower Manhattan, Brooklyn, and Rest of Manhattan

                    All Respondents     Lower Manhattan     Brooklyn     Rest of Manhattan


         100%


          80%

          60%

          40%
                             20.4%
                                                                 14.5%
                     10.5%            9.3% 9.8%
          20%                                             6.0%           5.3% 4.7%

           0%
                       Knew of Web Site                    Visited Web Site



Data in Figure 6 indicate that approximately 1 out of 10 of all respondents and respondents from
Brooklyn and the rest of Manhattan knew about EPA’s web site, but fewer visited the site.
Among respondents from Lower Manhattan, approximately 2 out of 10 respondents knew of the
web site and about 70 percent of those who knew of the web site visited it.

Figure 7 indicates that, among all respondents, approximately 6 out of 10 heard the message in
the weeks just after the collapse that homes contaminated with dust and/or debris should be
professionally cleaned for asbestos. More than half (58 percent) knew that some residents of
Lower Manhattan were eligible to have EPA test and clean their homes. About 6 out of every
100 respondents had their residence tested for asbestos. Among respondents from Lower
Manhattan, approximately 20 out of every 100 had their residence tested. Among respondents
from the rest of Manhattan and Brooklyn, less than 2 out of every 100 respondents had their
residence tested.




                                               14
       Figure 7: Proportion of All Respondents, Respondents from Lower Manhattan, Brooklyn,
       and Rest of Manhattan Who Were Aware of the Need for Professional Cleaning and of the
       EPA-Led Testing and Cleaning Program, and Had Their Residences Tested for Asbestos

                   All R es pondents                  Low er Manhattan                    Brooklyn          R es t of Manhattan

                100%




                                                                          68.7%
                              60.2%

                                      58.0%




                                                                  58.2%
                                                      58.4%
                 80%




                                                                                           56.9%
                                              54.9%




                                                                                  51.2%
                 60%




                                                                                                             21.6%
                 40%




                                                                                                     5.9%



                                                                                                                     1.7%
                 20%




                                                                                                                            1.3%
                   0%
                             H eard About                       Knew of EPA's                       H ad R es idence
                            "Profes s ional                   Tes t/C lean Program                      Tes ted
                              C leaning"



Respondents who reported that their home was contaminated with dust and/or debris due to the
collapse (see Appendix B, survey question 3.e.) were further asked whether or not they had taken
certain cleaning precautions, including using professional assistance to clean their home,
cleaning without professional assistance, or using a HEPA (High Efficiency Particulate Air)
vacuum to clean their home. Figure 8 depicts these cleaning activities among respondents from
Lower Manhattan, Brooklyn, and the rest of Manhattan who reported home contamination.

       Figure 8: Proportion of Respondents in Contaminated Homes Who Had Their Home
       Professionally Cleaned, Cleaned Without Professional Assistance, or Used HEPA Vacuum*


                             Low er Manhattan                    Brooklyn                 R es t of Mahnattan


               100%

                80%
                                                               70.3% 66.0%
                                                                           66.7%
                                                                                                    53.8%
                60%
                           38.3%
                40%                                                                                          28.3%
                                                                                                                  25.0%
                20%
                                      2.1% 0.0%
                  0%
                          P rofessionally                       Cleaned, Not                       HEPA Vacuum
                              Cleaned                           Professional                          Used

       *Some respondents reported that their residence was cleaned both with and without professional assistance.


                                                                     15
Data in Figure 8 indicate that about 4 in 10 of the Lower Manhattan respondents who reported
home contamination cleaned their homes with professional assistance. Approximately 2 percent
from Brooklyn did so, and no respondents from the rest of Manhattan who reported home
contamination used professional assistance to clean their home. At least two-thirds of
respondents from each of the three areas indicated they had cleaned their residence but did so
without the use of professional assistance.

Section 3 also asked respondents whether they took certain health-related actions in response to
the dust and debris created by the collapse of the WTC towers, such as whether they wore or
purchased protective breathing gear they normally would not have, or whether they visited a
health professional for symptoms they believed were related to air quality after the collapse.

Figure 9 depicts the actions of all respondents, as well as the actions taken by respondents from
Lower Manhattan, Brooklyn, and the rest of Manhattan. Figure 9 also shows the health-related
actions taken by respondents who worked within the perimeter of Ground Zero between
September 11, 2001, and December 31, 2001.

       Figure 9: Proportion of Respondents Who Wore or Purchased Protective Gear
       or Visited a Health Professional

                         Wore/Purchas ed Protective Gear                      Vis ited Health Profes s ional


              100%


               80%
                                            48.0%




               60%                                                                                  41.6%
                                                    36.6%




                                                                                                            35.4%
                         24.8%




                                                              20.5%

                                                                      20.7%
                                 20.4%




                                                                                 20.3%




               40%
                                                                                         14.0%




               20%


                0%
                         A ll             Low er            Brooklyn           Rest of           Ground Zero
                     Respondents         Manhattan                            Manhattan            Workers




Among all respondents, approximately 1 out of 4 reported wearing or purchasing protective
breathing gear, such as a mask. Approximately 1 out of 5 of all respondents visited a health
professional due to health problems they believed were due to air quality following the collapse.
Among respondents from Lower Manhattan, approximately 1 out of 2 reported wearing or
purchasing protective breathing gear in response to dust and/or debris created by the collapse,
and approximately 4 out of 10 visited a health professional. Among Ground Zero workers,
approximately 4 out of 10 wore or purchased protective breathing gear and about 1 out of 3
visited a health professional for problems they believed were related to air quality following the
collapse.

                                                            16
Limitations of Survey Results
Most important among the limitations associated with the OIG’s survey is the low response rate –
less than 12 percent. The low response rate limits our ability to generalize survey results to the
population of NYC with sufficient confidence. Reasons may vary as to why potential
respondents and/or certain groups of demographically similar people opted not to complete and
return the survey. For some potential respondents, the urgency, and possibly the relevancy, of the
matters covered in the survey could have been affected due to the passage of time between the
collapse of the WTC towers and when the survey was administered. The first survey forms were
distributed more than a year and a half after September 11, 2001. It is possible that one’s
opinions about air quality information may have weakened or intensified, depending on one’s
experiences, during that time. Thus, data could be skewed toward the positive or negative
extremes.

Another limitation associated with this survey is that some survey questions required respondents
to recollect events and experiences that occurred over a year and a half ago from the time they
took the survey. The tragic and striking nature of this event and the fact that some cleanup
activities were still ongoing in parts of NYC at the time our survey was conducted may mitigate
the likelihood of faded memories, but it is also possible that respondents’ recollections may have
faded or been skewed over time.

Further, although we asked that the person who most recently celebrated a birthday respond to
the survey, because it was a mail survey we cannot be certain that this occurred. Therefore, even
though the households were randomly selected, we cannot be sure that respondents from within
each household were selected at random as requested in the survey cover letter




                                               17
18
                                   Observations
Data from the survey suggest that the majority of respondents were generally dissatisfied with the
amount, timeliness, believability, and overall quality of the information they received in the
weeks just after the collapse of the WTC towers for both outdoor and indoor air quality. More
respondents reported dissatisfaction when asked specifically about health-related information,
suggesting that potential health risks related to air quality was an area of particular concern.

Despite reassuring statements about air quality following the collapse of the WTC towers, the
majority of respondents living in Lower Manhattan and the rest of NYC believed that there were
health risks associated with breathing outdoor and indoor air in Lower Manhattan. In the weeks
following the collapse, more than 3 out of 4 respondents thought that there were short-term
health risks associated with breathing outdoor and indoor air in Lower Manhattan, and more than
half of respondents thought that breathing outdoor and indoor air in Lower Manhattan could
expose them to long-term health risks. In the period just after the collapse until 2003, data
indicate that immediate concerns over air quality in Lower Manhattan subsided; however, over
time, substantially more respondents became unsure about whether or not breathing outdoor and
indoor air in Lower Manhattan could expose them to health risks.

The responses suggest that one of EPA’s major sources of information, its “Response to
September 11” web site, was largely unused. Only about 10 percent of the respondents knew
about EPA’s web site, and even fewer actually visited the site. Approximately 6 out of 10
respondents had heard that residences contaminated with dust and debris should be
professionally cleaned for asbestos, and knew about the EPA-led program to test and clean for
asbestos in certain residences in Lower Manhattan. However, despite this awareness, less than
6 percent of all respondents had their residence tested for asbestos.

Most reports of residential contamination came from respondents in Lower Manhattan, Brooklyn,
and the rest of Manhattan. Among respondents from these areas who reported home
contamination, relatively few reported having their residence professionally cleaned.




                                               19
20
                                                                                   Appendix A

                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                              WASHINGTON, DC 20460


                                                                          THE INSPECTOR GENERAL



February 28, 2003

Dear New York City Resident:

It has been over one year since the terrorist attacks on the World Trade Center, yet concerns
about New York City’s air quality still remain. The Office of Inspector General would like to
know your opinion of the air quality information you received following the attacks. By
completing and returning the enclosed survey you can help us determine whether the U.S.
Environmental Protection Agency (EPA) needs to improve the way it responds to disasters.
This survey should take 10 minutes or less to complete.

Please be assured that all responses are confidential. Your name will not be linked to your
responses and individual answers will not be revealed. For statistical purposes only, we ask that
the survey be completed by someone residing in the household who is 18 years of age or older,
and is the person who most recently celebrated a birthday. Following these instructions will
ensure that our results are as meaningful as possible.

A pre-addressed, postage paid envelope has been provided for you to return your completed
survey. We appreciate your prompt response. If you have any questions about this survey,
please call us at 1-800-846-3117.

Thank you in advance for your time and cooperation. In appreciation, we will send all
households a postcard providing them with a web address and phone number for accessing the
survey results.

You may be interested in knowing more about the Office of Inspector General. We conduct
independent reviews of EPA programs and activities. To learn more about our office, please
visit our website at http://www.epa.gov/oigearth.htm.

                                                                   Sincerely,



                                                                   Nikki L. Tinsley
                                                                   Inspector General


Si desea recibir esta encuesta en español, por favor llama a 1-800-846-3117.
If you wish to receive this survey in Spanish, please call 1-800-846-3117.




                                               21
Completing questions on the survey should take approximately 10 minutes or less. The total public reporting burden for this sur-
vey is estimated to average 15 minutes per respondent as a one-time-only burden. Burden means the total time, effort, or finan-
cial resources expended by persons to generate, maintain, or disclose or provide information to or for a Federal agency. This
includes: the time needed to review instructions; develop, acquire, install, and utilize technology and systems for the purposes of
collecting, validating, and verifying information; processing and maintaining information; disclosing and providing information;
adjusting the existing ways to comply with any previously applicable instructions and requirements; training personnel to be able
to respond to a collection of information; searching data sources; completing and reviewing the collection of information; and,
transmitting or otherwise disclosing or reporting on the information. An agency may not conduct or sponsor, and a person is not
required to respond to a collection of information unless it displays a currently valid OMB control number. The OMB control
numbers for EPA’s regulations are listed in 40 CFR Part 9 and 48 CFR Chapter 15.

Send comments on the Agency’s need for this information, the accuracy of the provided burden estimates, and any suggested
methods for minimizing respondent burden, including through the use of automated collection techniques to the Director,
Collection Strategies Division, U.S. Environmental Protection Agency (2822), 1200 Pennsylvania Ave. NW, Washington DC,
20460. Include the EPA ICR number 2094.01 in any correspondence. Please do not send completed surveys to this address, use
the provided envelope instead.




                                                                22
                                                                                                                              Appendix B
                                                                                                                            OMB#2020-0027 Expires: 5/31/03

                                   Survey of Air Quality Issues After September 11, 2001
                                 EPA Office of Inspector General - 1200 Pennsylvania Ave. NW, Washington, DC 20460

Instructions: Listed on the front and back of this page are three main topics relating to air quality. Some of the main topics ask you
to think about specific times, such as “just after the collapse.” Below each of the main topics are several questions. Please respond
to each question by choosing the response that best reflects your thoughts or actions during the specified time period. Please
complete the front and back of this survey. Circle “NA” (not applicable) if you have no response because a question does not
apply to you.




                                                                                                                                             tis ly
                                                                                                                                                    d
 1.) Please rate your satisfaction with the information you heard or received about air




                                                                                                                                           Sa lete
                                                                                                          tis l
                                                                                                                d
                                                                                                        Sa t Al




                                                                                                                                                 fie
                                                                                                             fie




                                                                                                                                               p
                                                                                                          ta
     quality in the weeks just after the collapse of the World Trade Center towers:




                                                                                                                                            m
                                                                                                      No




                                                                                                                                         Co
  a. The amount of information I heard or received about outdoor air quality                            1           2   3         4       5             NA
  b. The amount of information I heard or received about indoor air quality                             1           2   3         4       5             NA
FOR THE INFORMATION YOU HEARD OR RECEIVED, PLEASE RATE:

  c. The “understandability” of information I heard or received about outdoor air quality               1           2   3         4       5             NA

  d. The “understandability” of information I heard or received about indoor air quality                1           2   3         4       5             NA

  e. The timeliness of information I heard or received about outdoor air quality                        1           2   3         4       5             NA

  f. The timeliness of information I heard or received about indoor air quality                         1           2   3         4       5             NA

  g. The “believability”of information I heard or received about outdoor air quality                    1           2   3         4       5             NA

  h. The “believability”of information I heard or received about indoor air quality                     1           2   3         4       5             NA

  i. My overall rating of information I heard or received about outdoor air quality                     1           2   3         4       5             NA

  j. My overall rating of information I heard or received about indoor air quality                      1           2   3         4       5             NA

  k. Explanation of possible threats to my health related to air quality                                1           2   3         4       5             NA

  l. Explanation of how to minimize my exposure to potential health risks related to air quality        1           2   3         4       5             NA

 m. Explanation of health problems I might experience due to air quality                                1           2   3         4       5             NA

  n. Explanation of steps I should take if I experienced health problems related to air quality         1           2   3         4       5             NA

  o. My overall rating of information I received about health risks related to air quality              1           2   3         4       5             NA


2.) Please circle the response for both time periods that best reflects your thoughts about air quality in terms of how it was
    affected by the collapse of the World Trade Center towers:
a. Did you think breathing outdoor air in lower Manhattan could expose you to long-term health risks, such as cancer?
                                      In the weeks just after the collapse?                    Yes         No       Wasn’t Sure                         NA
                                      How about outdoor air now?                               Yes         No       Not Sure                            NA
b. Did you think breathing indoor air in lower Manhattan could expose you to long-term health risks, such as cancer?
                                       In the weeks just after the collapse?                    Yes        No        Wasn’t Sure                        NA
                                       How about indoor air now?                                Yes        No        Not Sure                           NA
c. Did you think breathing outdoor air in lower Manhattan could expose you to short-term health problems, such as coughing, sore throat,
   or asthma attacks?
                                      In the weeks just after the collapse?                    Yes        No        Wasn’t Sure     NA
                                      How about outdoor air now?                               Yes        No        Not Sure        NA
d. Did you think breathing indoor air in lower Manhattan could expose you to short-term health problems, such as coughing, sore throat,
   or asthma attacks?
                                       In the weeks just after the collapse?                    Yes       No        Wasn’t Sure     NA
                                       How about indoor air now?                                Yes       No        Not Sure        NA
e. Did you think you should have worn protective gear, such as a mask, when breathing outdoor air in lower Manhattan?
                                     In the weeks just after the collapse?                    Yes         No       Wasn’t Sure                          NA
                                     How about wearing it now?                                Yes         No       Not Sure                             NA
f. Did you think you should have worn protective gear, such as a mask, when breathing indoor air in lower Manhattan?
                                     In the weeks just after the collapse?                     Yes         No       Wasn’t Sure                         NA
                                     How about wearing it now?                                 Yes         No       Not Sure                            NA


                  PLEASE TURN PAGE OVER TO COMPLETE SURVEY

                                                                        23
 3.) Please circle the response that best describes the actions you took in response to dust or debris created by the collapse of
     the World Trade Center towers and your awareness of certain WTC-related information:
  a. I wore or purchased protective gear, such as a mask, that I normally would not have.               Yes     No   Not sure        NA

  b. I visited a health professional for health problems I believed were related to air quality.        Yes     No   Not sure        NA
  c. A HEPA vacuum was used to clean the carpeting and/or rugs in my residence.                         Yes     No   Not sure        NA
  d. My residence was tested for asbestos.                                                              Yes     No   Not sure        NA
  e. My residence was contaminated with dust/debris due to the collapse. (If you answer                 Yes     No   Not sure        NA
    “No” or “NA”, skip to m.)
  f. My residence was cleaned for dust/debris with professional assistance.                             Yes     No   Not sure        NA
  g. My residence was cleaned for dust/debris without professional assistance.                          Yes     No   Not sure        NA
  h. The floors and surfaces in my residence were wiped for dust/debris with a wet cloth.               Yes     No   Not sure        NA
  i. All of the clothes in my residence were laundered due to dust from the collapse.                   Yes     No   Not sure        NA
  j. I have permanently vacated my residence due to dust/debris from the collapse. (If you              Yes     No   Not sure        NA
      answer “Yes”, skip to m.)
  k. I temporarily (at least 24 hrs) vacated my residence due to dust/debris from the collapse.         Yes     No   Not sure        NA
     (If you answer “No”, “Not sure” or “NA”, skip to m.)
  l. How long was it before anyone moved back into your residence?
         1 to 6 days                   7 to14 days                       15 to 21 days
         21 days to 1 month            more than 1 month                 No one has moved back in yet
 m. I know about EPA’s “Response to September 11” Internet website.                                     Yes     No   Not sure        NA

  n. I have visited EPA’s “Response to September 11” Internet website.                                  Yes     No   Not sure        NA

  o. In the weeks just after the collapse, I heard that homes contaminated with dust/debris             Yes     No   Not sure        NA
     should be professionally cleaned for asbestos.
  p. I know that some residents of lower Manhattan are eligible to have EPA test and clean              Yes     No   Not sure        NA
     their homes.



 4.) Thank you for your help so far. There are only a few more questions to go. The following information is optional, but it
     will help us to make sure that everyone’s opinion is included.

 a. How many children under the age of 18 lived in your home as of September 11, 2001?
       None       1       2         3           4         5 or more
 b. Not counting you, how many adults between the age of 18 and 60 lived in your home as of September 11, 2001?
       None        1       2        3         4         5 or more
 c. Not counting you, how many adults over the age of 60 lived in your home as of September 11, 2001?
       None        1       2        3          4         5 or more
 d. What is your age? _______ years old
 e. What is your gender?                Female           Male
 f.   What was your 5-digit zip code as of September 11, 2001? ___ ___ ___ ___ ___
 g. Which choice best represents the area in which you worked during the month of September, 2001? (pick one)
       Manhattan: South of Canal or Pike St.                  Bronx                       Connecticut
       Manhattan: On Canal or Pike to South of 14th           Brooklyn                    New Jersey
       Manhattan: On 14th to 42nd                             Queens                  Other: ________________________
       Manhattan: On 42nd to top of Manhattan                 Staten Island
 h. Between 9-11-01 and 12-31-01, did you ever work within the perimeter of Ground Zero?                      Yes         No
 i.   What is the highest level of education you have completed?
        Less than High School          High School Diploma      Some College                          Bachelor’s Degree
        Post-Grad. Degree             Associate’s Degree        Tech/Vocational Degree             Other: ________________________

 j.   Is your primary language English?                   Yes             No


        Thank you for completing our survey. Please use the pre-addressed, postage-paid envelope to return your responses.

If you have further comments regarding the issues covered in this survey, please contact our office at 1-800-846-3117 or write to us at EPA
Office of Inspector General, 1200 Pennsylvania Ave. NW, Washington, DC 20460.
                                                                        24
                                                                                   Appendix C

                                   Sample Details
The sampling frame – the universe from which the OIG drew its sample – consisted of all
addresses in the five boroughs of NYC (Bronx, Brooklyn, Manhattan, Queens, and Staten
Island). These areas were selected based on the proximity of residences to the WTC towers site
and their potential exposure to the dust and debris created by the collapse. The sample was
purchased from R.L. Polk Co., of Detroit, Michigan.
A sample of 10,000 addresses was selected from this frame and divided into two sample groups
of 5,000. The proportion of addresses in each set were drawn to approximate the proportion of
households in each borough as reported in the 2000 Census. The distribution of addresses was
approximated so that Manhattan could be over sampled. Manhattan was divided into two parts:
Lower Manhattan, which, for purposes of this report, is defined to include residences south of E.
Houston and Broome Streets; and the rest of Manhattan, which is defined to include residences
north of E. Houston and Broome Streets. The final distribution of addresses in the sample was:

       C Bronx: 13%                                 C Rest of Manhattan: 21%
       C Brooklyn: 27%                              C Queens: 22%
       C Lower Manhattan: 13%                       C Staten Island: 4%

The Survey of Air Quality Issues After September 11, 2001, was initiated with the delivery of the
pre-notification postcard on March 25, 2003 and collection was closed on July 31, 2003.

A pre-notification postcard was delivered to 5,000 addresses in the first sample group 2 days
before the surveys were mailed to inform recipients that a survey was coming and to ask for their
cooperation. This was done to promote a high response rate. In addition, a toll-free hotline was
provided in both English and Spanish for respondents to ask questions and/or request a Spanish
version of the survey. The package delivered to each address in the sample included: (1) a cover
letter printed on OIG stationery and signed by the Inspector General; (2) a one-page, double-
sided survey; and (3) a postage-paid business reply envelope for the survey’s return. Appendix B
provides the survey form. Based on the response rate from the first 5,000 surveys released, the
OIG released surveys to the second set of 5,000 addresses to increase the number of responses.
A pre-notification postcard was not sent to the second set of addresses. As a followup reminder,
a postcard was delivered to every address in both sample groups asking potential respondents to
fill out and return the survey.




                                               25
26
                                                                              Appendix D

                                   Distribution

EPA Headquarters

      Acting Administrator
      Acting Assistant Administrator for Solid Waste and Emergency Response
      Assistant Administrator for Air and Radiation
      Assistant Administrator for Research and Development
      Assistant Administrator for Environmental Information
      Acting Associate Administrator, Office of Public Affairs
      Comptroller (2731A)
      Agency Audit Follow-up Coordinator (2724A)
      Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
      Audit Follow-up Coordinator, Office of Air and Radiation
      Audit Follow-up Coordinator, Office of Research and Development
      Audit Follow-up Coordinator, Office of Environmental Information
      Audit Follow-up Coordinator, Office of Public Affairs
      Associate Administrator for Congressional and Intergovernmental Relations (1301A)
      Director, Office of Regional Operations (1108A)


EPA Regions

      Regional Administrators
      Regional Audit Follow-up Coordinators


New York City

      City of New York Law Department


EPA Office of Inspector General

      Inspector General (2410)




                                            27
